  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




HIGHMARK MEDICARE SERVICES, INC.,
   UNDERSTATED ITS ALLOCABLE
 NONQUALIFIED DEFINED-BENEFIT
     PLAN PENSION COSTS FOR
        CALENDAR YEARS
       2008 THROUGH 2011

    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                         April 2014
                                                       A-07-13-00431
                           Office of Inspector General
                                            https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of
Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often
lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                              Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post
its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

  Highmark Medicare Services, Inc., understated its allocable nonqualified defined-
  benefit plan pension costs for the Medicare and Other segments by approximately
  $12,000 and $140,000, respectively, for calendar years 2008 through 2011.


WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their nonqualified defined-benefit
plan (NQDBP) pension costs, which are funded by the annual contributions that these contractors
make to their pension plans. The amount of pension costs that the Centers for Medicare &
Medicaid Services (CMS) reimburses to the contractors is determined by the cost reimbursement
principles contained in the Federal Acquisition Regulation (FAR) and Cost Accounting
Standards (CAS) as required by the Medicare contracts.

For this review, we focused on one Medicare contractor, Highmark Medicare Services, Inc.
(Highmark). In particular, we examined the Medicare segment and Other segment allocable
NQDBP pension costs (which for this report we refer to as “NQDBP costs”) that Highmark used
to calculate the indirect cost rates in its incurred cost proposals (ICPs).

The objective of this review was to determine whether the NQDBP costs that Highmark used to
calculate the indirect cost rates in its ICPs for calendar years (CYs) 2008 through 2011 complied
with Federal requirements.

BACKGROUND

During our audit period, Highmark was a wholly owned subsidiary of Highmark, Inc., whose
home office was in Camp Hill, Pennsylvania. Highmark administered Medicare Parts A and B
operations under cost reimbursement contracts with CMS until the Medicare segment was sold to
Diversified Services Options, Inc. (DSO), effective January 1, 2012.

With the implementation of Medicare contracting reform, Highmark continued to perform
Medicare work after being awarded the Medicare administrative contractor (MAC) (Jurisdiction
12) contract on October 24, 2007. While performing its MAC work, Highmark also functioned
as a Medicare Part A fiscal intermediary and Part B carrier, with those contracts terminating in
July 2008 and December 2008, respectively. Highmark continued to work as the Jurisdiction 12
MAC until January 1, 2012, when Highmark, Inc., sold its wholly owned subsidiary, Highmark,
to DSO.

Effective January 1, 1998, Highmark amended its disclosure statement to implement pooled
costing. Medicare contractors use pooled costing to calculate the indirect cost rates that they
submit on their ICPs. The pension costs are included in the computation of the indirect cost rates
reported on the ICPs.




Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)   i
Under the provisions of Medicare contracting reform, CMS transitioned the functions of the
fiscal intermediaries and carriers, which had executed the Medicare fiscal intermediary and
carrier contracts, to Medicare contractors. As part of this transition, the method by which
Medicare reimbursed pension costs to the contractor changed from a cost reimbursement basis to
an indirect cost basis. In accordance with the FAR and the Medicare contract, reimbursement of
indirect costs was now based on indirect cost rates that met the negotiated indirect cost rates
determined by the contract.

Highmark sponsors the Highmark Executive Retirement Restoration Plan (HERRP), whose
primary purpose is to provide deferred compensation to a select group of management or highly
compensated employees. The HERRP is an NQDBP designed to restore pension accruals that
were not provided through the qualified defined-benefit pension plan as a result of elective
deferrals of compensation or the statutory limits imposed by the Internal Revenue Code sections
401(a)(17) and 415.

We reviewed $325,116 of Medicare segment NQDBP costs used by Highmark in the calculation
of its indirect cost rates for CYs 2008 through 2011. We also reviewed $17,614,567 of Other
segment NQDBP costs used by Highmark in the calculation of its indirect cost rates for this same
time period.

WHAT WE FOUND

Neither the Medicare segment nor the Other segment allocable NQDBP costs that Highmark
used to calculate indirect cost rates fully complied with Federal requirements. Specifically, for
CYs 2008 through 2011:

    •   Highmark used Medicare segment NQDBP costs of $325,116 to calculate its indirect cost
        rates; however, we determined that the Medicare segment NQDBP costs that Highmark
        should have used to calculate the indirect cost rates were $336,632. Thus, Highmark
        understated the Medicare segment NQDBP costs used to calculate its indirect cost rates
        by $11,516.

    •   Highmark used Other segment NQDBP costs of $17,614,567 to calculate its indirect cost
        rates; however, we determined that the Other segment NQDBP costs that Highmark
        should have used to calculate the indirect cost rates were $17,754,963. Thus, Highmark
        understated the Other segment NQDBP costs used to calculate its indirect cost rates by
        $140,396.

These understatements occurred primarily because Highmark used incorrect CAS pension costs
to calculate its indirect cost rates for CYs 2008 through 2011.




Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)   ii
WHAT WE RECOMMEND

We recommend that Highmark:

    •   increase the Medicare segment NQDBP costs used to calculate the indirect cost rates by
        $11,516 for CYs 2008 through 2011 and

    •   increase the Other segment NQDBP costs used to calculate the indirect cost rates by
        $140,396 for CYs 2008 through 2011.

AUDITEE COMMENTS

In written comments on our draft report, Highmark concurred with our recommendations.




Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)   iii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................... 1

       Why We Did This Review ...................................................................................................... 1

       Objective ................................................................................................................................. 1

       Background ............................................................................................................................. 1
           Highmark Medicare Services, Inc. ................................................................................. 1
           Medicare Reimbursement of Pension Costs ................................................................... 2

       How We Conducted This Review........................................................................................... 2

FINDINGS ...................................................................................................................................... 3

       Understatement of Medicare Segment Pension Costs ............................................................ 3

       Understatement of Other Segment Pension Costs .................................................................. 4

RECOMMENDATIONS ................................................................................................................ 5

AUDITEE COMMENTS................................................................................................................ 5

APPENDIXES

       A: Audit Scope and Methodology .......................................................................................... 6

       B: Federal Requirements Related to
          Reimbursement of Nonqualified Defined-Benefit Plan Costs ........................................... 8

       C: Allocable Nonqualified Defined-Benefit Plan
          Costs for Highmark Medicare Services, Inc.,
          for Calendar Years 2008 Through 2011 ............................................................................ 9

       D: Auditee Comments........................................................................................................... 11




Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)                                              iv
                                               INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their nonqualified defined-benefit
plan (NQDBP) pension costs, which are funded by the annual contributions that these contractors
make to their pension plans. The amount of pension costs that the Centers for Medicare &
Medicaid Services (CMS) reimburses to the contractors is determined by the cost reimbursement
principles contained in the Federal Acquisition Regulation (FAR) and Cost Accounting
Standards (CAS) as required by the Medicare contracts.

For this review, we focused on one Medicare contractor, Highmark Medicare Services, Inc.
(Highmark). In particular, we examined the Medicare segment and Other segment allocable
NQDBP pension costs (which for this report we refer to as “NQDBP costs”) that Highmark used
to calculate the indirect cost rates in its incurred cost proposals (ICPs).

OBJECTIVE

Our objective was to determine whether the NQDBP costs that Highmark used to calculate the
indirect cost rates in its ICPs for calendar years (CYs) 2008 through 2011 complied with Federal
requirements.

BACKGROUND

Highmark Medicare Services, Inc.

During our audit period, Highmark was a wholly owned subsidiary of Highmark, Inc., whose
home office was in Camp Hill, Pennsylvania. Highmark administered Medicare Parts A and B
operations under cost reimbursement contracts with CMS until the Medicare segment was sold to
Diversified Services Options, Inc. (DSO), effective January 1, 2012.

With the implementation of Medicare contracting reform, 1 Highmark continued to perform
Medicare work after being awarded the MAC (Jurisdiction 12) contract on October 24, 2007. 2
While performing its MAC work, Highmark also functioned as a Medicare Part A fiscal
intermediary and Part B carrier, with those contracts terminating in July 2008 and
December 2008, respectively. Highmark continued to work as the Jurisdiction 12 MAC until
January 1, 2012, when Highmark, Inc., sold its wholly owned subsidiary, Highmark, to DSO.


1
 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173
(MMA), required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative
contractors (MACs) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational;
for jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the terms “Medicare contractor” and “MAC” mean the fiscal intermediary,
carrier, or MAC, whichever is applicable.
2
 Medicare Parts A and B Jurisdiction 12 consists of the States of Delaware, Maryland, New Jersey, and
Pennsylvania, and the District of Columbia.


Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)                  1
Effective January 1, 1998, Highmark amended its disclosure statement to implement pooled
costing. Medicare contractors use pooled costing to calculate the indirect cost rates that they
submit on their ICPs. The pension costs are included in the computation of the indirect cost rates
reported on the ICPs. The FAR requires Medicare contractors to file final indirect cost rates on
their ICPs 6 months after the year end. In turn, CMS uses the indirect cost rates in reimbursing
costs under cost-reimbursement contracts.

Highmark sponsors the Highmark Executive Retirement Restoration Plan (HERRP), whose
primary purpose is to provide deferred compensation to a select group of management or highly
compensated employees. The HERRP is an NQDBP designed to restore pension accruals that
were not provided through the qualified defined-benefit pension plan as a result of elective
deferrals of compensation or the statutory limits imposed by the Internal Revenue Code sections
401(a)(17) and 415.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the Medicare contractors’ annual NQDBP costs, which are funded
by the annual contributions that these contractors make to their NQDBP plans. To be allowable
for Medicare reimbursement, pension costs must be (1) measured, assigned, and allocated in
accordance with CAS 412 and 413 and (2) funded as specified by part 31 of the FAR.

Under the provisions of the contracts that CMS developed with the Medicare contractors as part
of the implementation of the MMA, the method by which Medicare reimbursed NQDBP costs to
the contractor changed from a cost reimbursement basis to an indirect cost basis. In accordance
with the FAR and the MAC contract, reimbursement of indirect costs was now based on indirect
cost rates that met the negotiated indirect cost rates determined by the contract.

HOW WE CONDUCTED THIS REVIEW

We reviewed $325,116 of Medicare segment NQDBP costs used by Highmark in the calculation
of its indirect cost rates for CYs 2008 through 2011. We also reviewed $17,614,457 of Other
segment NQDBP costs used by Highmark in the calculation of its indirect cost rates for this same
time period.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.




Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)   2
                                                FINDINGS

Neither the Medicare segment nor the Other segment allocable NQDBP costs that Highmark
used to calculate its indirect cost rates fully complied with Federal requirements. Specifically, for
CYs 2008 through 2011:

    •   Highmark used Medicare segment NQDBP costs of $325,116 to calculate its indirect cost
        rates; however, we determined that the Medicare segment NQDBP costs that Highmark
        should have used to calculate the indirect cost rates were $336,632. Thus, Highmark
        understated the Medicare segment NQDBP costs used to calculate its indirect cost rates
        by $11,516.

    •   Highmark used Other segment NQDBP costs of $17,614,567 to calculate its indirect cost
        rates; however, we determined that the Other segment NQDBP costs that Highmark
        should have used to calculate the indirect cost rates were $17,754,963. Thus, Highmark
        understated the Other segment NQDBP costs used to calculate its indirect cost rates by
        $140,396.

These understatements occurred primarily because Highmark used incorrect CAS pension costs
to calculate its indirect cost rates for CYs 2008 through 2011.

UNDERSTATEMENT OF MEDICARE SEGMENT PENSION COSTS

Highmark used NQDBP costs of $325,116 to calculate its indirect cost rates for the Medicare
segment. We calculated CAS-based NQDBP costs for CYs 2008 through 2011 for the Medicare
segment in accordance with CAS 412 and 413. For details on the Federal requirements, see
Appendix B.

We determined that the CAS-based NQDBP costs for the Medicare segment were $336,632 for
CYs 2008 through 2011. Thus, Highmark understated the Medicare segment NQDBP costs used
to calculate its indirect cost rates for CYs 2008 through 2011 by $11,516. This understatement
occurred because Highmark used incorrect CAS-based NQDBP costs when calculating its
indirect cost rates for this time period.

Table 1 on the following page shows the differences between the Medicare segment CAS-based
NQDBP costs that we calculated and the NQDBP costs that Highmark used to calculate its
indirect cost rates for CYs 2008 through 2011. Appendix C contains additional details on
pension costs.




Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)   3
               Table 1: Comparison of Pension Costs for the Medicare Segment

                                          Medicare Segment
                                           Pension Costs
                    Calendar
                     Year            Per Audit       Per Highmark            Difference
                      2008            $137,643             $126,428               $11,215
                      2009             198,989              198,688                   301
                      2010                   0                    0                     0
                      2011                   0                    0                     0
                     Total            $336,632             $325,116               $11,516

UNDERSTATEMENT OF OTHER SEGMENT PENSION COSTS

Highmark used NQDBP costs of $17,614,567 to calculate its indirect cost rates for the Other
segment. We calculated CAS-based NQDBP costs for CYs 2008 through 2011 for the Other
segment in accordance with CAS 412 and 413. For details on the Federal requirements, see
Appendix B.

We determined that the CAS-based NQDBP costs for the Other segment were $17,754,963 for
CYs 2008 through 2011. Thus, Highmark understated the Other segment NQDBP costs used to
calculate its indirect cost rates for CYs 2008 through 2011 by $140,396. This understatement
occurred because Highmark used incorrect CAS-based NQDBP costs when calculating its
indirect cost rates for this time period.

Table 2 below shows the differences between the Other segment CAS-based NQDBP costs that
we calculated and the NQDBP costs that Highmark used to calculate its indirect cost rates for
CYs 2008 through 2011. Appendix C contains additional details on pension costs.

                 Table 2: Comparison of Pension Costs for the Other Segment

                                    Other Segment Pension Costs
                    Calendar
                     Year           Per Audit        Per Highmark            Difference
                      2008          $6,913,243           $6,540,590              $372,653
                      2009           8,136,907            8,294,528             (157,621)
                      2010                   0                    0                      0
                      2011           2,704,813            2,779,449               (74,636)
                     Total         $17,754,963          $17,614,567              $140,396




Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)   4
                                        RECOMMENDATIONS

We recommend that Highmark:

    •   increase the Medicare segment NQDBP costs used to calculate the indirect cost rates by
        $11,516 for CYs 2008 through 2011 and

    •   increase the Other segment NQDBP costs used to calculate the indirect cost rates by
        $140,396 for CYs 2008 through 2011.

                                        AUDITEE COMMENTS

In written comments on our draft report, Highmark concurred with our recommendations.
Specifically, Highmark agreed that the Medicare segment NQDBP costs used to calculate the
indirect cost rates should be increased by $11,516 for CYs 2008 through 2011. Highmark also
agreed that the Other segment NQDBP costs used to calculate the indirect cost rates should be
increased by $140,396 for CYs 2008 through 2011.

Highmark’s comments are included in their entirety as Appendix D.




Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)   5
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $325,116 of Medicare segment NQDBP costs used by Highmark in the calculation
of its indirect cost rates for CYs 2008 through 2011. We also reviewed $17,614,567 of Other
segment NQDBP costs used by Highmark in the calculation of its indirect cost rates for this same
time period.

Achieving our objective did not require that we review Highmark’s overall internal control
structure. We reviewed the internal controls related to the NQDBP costs claimed for Medicare
reimbursement to ensure that these costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed our fieldwork at Highmark in Camp Hill, Pennsylvania, in September 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed the portions of the FAR, CAS, and the Medicare contracts applicable to this
        audit;

    •   reviewed information provided by Highmark to identify the amount of NQDBP costs
        used in Highmark’s calculation of its indirect cost rates for CYs 2008 through 2011;

    •   used information that Highmark’s actuarial consulting firm provided, including
        information on assets, liabilities, normal costs, contributions, benefit payments,
        investment earnings, and administrative expenses;

    •   examined Highmark’s accounting records, NQDBP plan documents, and annual actuarial
        valuation reports;

    •   determined the extent to which Highmark funded CAS-based NQDBP costs with
        contributions to the pension trust fund and accumulated prepayment credits;

    •   engaged the CMS Office of the Actuary to calculate the NQDBP costs based on the CAS
        (the calculations were based on separately computed CAS-based NQDBP costs for the
        Medicare segment and the Other segment); and

    •   reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with the following audits and used the information
obtained during this review:




Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)   6
    •   Highmark Medicare Services, Inc., Overstated Its Nonqualified Defined-Benefit Plan
        Medicare Segment Pension Assets and Overstated the Medicare Segment Excess Pension
        Liabilities as of January 1, 2012 (A-07-13-00429) and

    •   Highmark Medicare Services, Inc., Did Not Claim Some Allowable Nonqualified
        Defined-Benefit Plan Pension Costs for Fiscal Years 2003 Through 2009
        (A-07-13-00430).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)   7
              APPENDIX B: FEDERAL REQUIREMENTS RELATED TO
        REIMBURSEMENT OF NONQUALIFIED DEFINED-BENEFIT PLAN COSTS

FEDERAL REGULATIONS

Federal regulations (FAR 52.216-7(a)(1)) address the invoicing requirements and the
allowability of payments as determined by the Contracting Officer in accordance with FAR
subpart 31.2.

Federal regulations (FAR 31.205-6(j)) require Medicare contractors to measure, assign, and
allocate the costs of all defined-benefit pension plans in accordance with CAS 412 and 413.
Federal regulations (FAR 31.205-6(j)) also address allowability of pension costs and require that
Medicare contractors fund the pension costs assigned to contract periods by making
contributions to the pension plan.

Federal regulations (CAS 412) (as amended) address the determination and measurement of
pension cost components. This regulation also addresses the assignment of pension costs to
appropriate accounting periods.

Federal regulations (CAS 412.50(c)(3)) state that the cost of NQDBP plans shall be assigned to
cost accounting periods in the same manner as qualified plans under the following conditions:

    •    the contractor, in disclosing or establishing cost accounting practices, elects to have a
         plan so accounted for;

    •    the plan is funded through the use of a funding agency; and

    •    the right to a pension benefit is nonforfeitable and is communicated to the participants.

Federal regulations (CAS 413) (as amended) address the valuation of pension assets, allocation
of pension costs to segments of an organization, adjustment of pension costs for actuarial gains
and losses, and assignment of gains and losses to cost accounting periods.

MEDICARE CONTRACTS

The contracts state: “Once each month following the effective date of this contract, the
Contractor may submit to the Government an invoice for payment, in accordance with FAR
clause 52.216-7, ‘Allowable Cost & Payment.’”




Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)   8
                                         APPENDIX C: ALLOCABLE NONQUALIFIED DEFINED-BENEFIT PLAN 

                                               COSTS FOR HIGHMARK MEDICARE SERVICES, INC.,

                                                   FOR CALENDAR YEARS 2008 THROUGH 2011


                                                                       Total                 Other            Medicare        Gateway
           Date                      Description                      Company               Segment           Segment         Segment

           2008           Contributions                         1/     $7,709,587           $7,657,934            $22,102        $29,551
                          Discount for Interest                 2/      ($206,826)           ($205,440)             ($593)         ($793)
     January 1, 2008      Present Value Contributions           3/     $7,502,761           $7,452,494            $21,509        $28,758
                          Prepayment Credit Applied             4/     $6,073,156           $5,803,136           $115,541       $154,479
                          Present Value of Funding              5/    $13,575,917          $13,255,630           $137,050       $183,237

     January 1, 2008      CAS Funding Target                    6/     $7,203,749           $6,883,462           $137,050       $183,237
                          Percentage Funded                     7/                             100.00%            100.00%        100.00%
                          Funded Pension Cost                   8/                          $6,883,462           $137,050       $183,237
                          Allowable Interest                    9/                             $29,781               $593           $793
           2008           CY Allocable Pension Cost            10/                          $6,913,243           $137,643       $184,030


                                                                       Total                 Other            Medicare        Gateway
           Date                      Description                      Company               Segment           Segment         Segment

           2009           Contributions                                $9,059,068           $8,976,607            $38,971        $43,490
                          Discount for Interest                         ($220,407)           ($218,401)             ($948)       ($1,058)
     January 1, 2009      Present Value Contributions                  $8,838,661           $8,758,206            $38,023        $42,432
                          Prepayment Credit Applied                    $6,881,942           $6,543,349           $160,018       $178,575
                          Present Value of Funding                    $15,720,603          $15,301,555           $198,041       $221,007

     January 1, 2009      CAS Funding Target                           $8,517,184           $8,098,136           $198,041       $221,007
                          Percentage Funded                                                    100.00%            100.00%        100.00%
                          Funded Pension Cost                                               $8,098,136           $198,041       $221,007
                          Allowable Interest                                                   $38,771               $948         $1,058
           2009           CY Allocable Pension Cost                                         $8,136,907           $198,989       $222,065


                                                                       Total                 Other            Medicare        Gateway
           Date                      Description                      Company               Segment           Segment         Segment

           2010           Contributions                                          $0                     $0               $0             $0
                          Discount for Interest                                  $0                     $0               $0             $0
     January 1, 2010      Present Value Contributions                            $0                     $0               $0             $0
                          Prepayment Credit Applied                              $0                     $0               $0             $0
                          Present Value of Funding                               $0                     $0               $0             $0

     January 1, 2010      CAS Funding Target                                     $0                      $0            $0             $0
                          Percentage Funded                                                           0.00%         0.00%          0.00%
                          Funded Pension Cost                                                            $0            $0             $0
                          Allowable Interest                                                             $0            $0             $0
           2010           CY Allocable Pension Cost                                                      $0            $0             $0




Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)                                          9
                                                                       Total                 Other        Medicare          Gateway             Highmark West
           Date                      Description                      Company               Segment       Segment           Segment                Virginia

           2011           Contributions                                $3,130,301           $3,130,301               $0                $0
                          Discount for Interest                          ($75,633)            ($75,633)              $0                $0
     January 1, 2011      Present Value Contributions                  $3,054,668           $3,054,668               $0                $0                   $0
                          Prepayment Credit Applied                    $2,769,074           $2,704,813               $0                $0              $64,261
                          Present Value of Funding                     $5,823,742           $5,759,481               $0                $0              $64,261

     January 1, 2011      CAS Funding Target                           $2,769,074           $2,704,813             $0                  $0              $64,261
                          Percentage Funded                                                    100.00%          0.00%               0.00%              100.00%
                          Funded Pension Cost                                               $2,704,813             $0                  $0              $64,261
                          Allowable Interest                                                        $0             $0                  $0                   $0
           2011           CY Allocable Pension Cost                                         $2,704,813             $0                  $0              $64,261


ENDNOTES

 1/ We obtained Total Company contribution amounts and dates of deposit from actuarial valuation reports and trust statements. The contributions included
    deposits made during the CY and accrued contributions deposited after the end of the CY but within the time allowed for filing tax returns. We
    determined the contributions allocated to the Medicare segment during the NQDBP segmentation review (A-07-13-00429) and NQDBP costs claimed for
    Medicare reimbursement review (A-07-13-00430). Therefore, the amounts shown for the Other segment represent the difference between the Total
    Company, the Medicare segments, Gateway Segment, and the Highmark West Virginia segment.

 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the contributions back to
    their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference between the present value of contributions
    (at the CAS valuation interest rate) and actual contribution amounts.

 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the CY.

 4/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is created when
    contributions, plus interest, exceed the end-of-year CAS funding target. A prepayment credit is carried forward, with interest, to fund future CAS

 5/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding that is available to
    cover the CAS funding target measured at the first day of the CY.

 6/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the FAR 31.205-6(j)(2)(i).

 7/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the CY. Because any funding in excess of
    the CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(1), the funded ratio may not exceed 100 percent. We
    computed the percentage funded as the present value of funding divided by the CAS funding target. For purposes of illustration, the percentage of
    funding has been rounded to four decimal places.

 8/ We computed the funded CAS-based pension cost as the CAS funding target multiplied by the percent funded.

 9/ We assumed that interest on the funded CAS-based pension cost, less the prepayment credit, accrues in the same proportion as the interest on
    contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR 31.205-6(j)(2)(iii), which does not
    permit the allowable interest to exceed the interest that would accrue if the CAS funding target were funded in 4 equal installments deposited within 30
    days after the end of the quarter.

10/ The CY allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.




Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)                                                          10
                                APPENDIX D: AUDITEE COMMENTS





            Apriln,   2014



            Mr. Patrick Cogley
            Regional Inspector General for Audit Services
            Office of Audit Services, Region VII
            Department of Health and Human Services
            601 East 12th Street, Room 0429
            Kansas City, MO 64106

            Subject: OIG Report Number A-07-13-00431

            Dear Mr. Cogley:

            Thank you for affording Highmark Inc. ("Highmark") this opportunity to comment on the U.S.
            Department of Health and Human Services, Office of Inspector General ("OIG"), draft report
            entitled Highmark Medicare Services, Inc., Understated Its Allocable Nonqualified Defined­
            Benefit Plan Pension Costs for Calendar Years 2008 Through 2011.

            We have carefully reviewed both the draft audit report and the additional detailed supplemental
            information received from the audit team. Our comments on the recommendations specific to this
            report are provided below:

            1.   Highmark agrees that the Medicare segment nonqualified pension costs used to calculate the
                 indirect cost rates should be increased $11,516 for calendar years 2008 through 2011.

            2.   Highmark agrees that the other or indirect segment nonqualified pension costs used to
                 calculate the indirect cost rates should be increased $140,396 for calendar years 2008 through
                 2011, of which only $2,050 should be allocated to the Medicare segment.


            While we concur with the overall recommendations in this report, Highmark's detailed
            examination of the individual data elements identified various minor transpositions, CAS
            application and other differe nces that Highmark does not contest because the net impact of these
            items is immaterial to the overall pension and nonqualified pension audit findings.

            Thank you again for affording Highmark the opportunity to comment on this report. Please do not
            hesitate to contact me if you have any questions regarding this response.

             Sincerely,


                 ~'~--·~~
             Janine K. Colinear
             Chief Accounting Officer
                                                                     Corpomll' Offic-es:

                                                                   C.lmp I Ii!! PA I ;""O/ill
                                        l" ilth ·\H 'I1ll(' Pl.1q• • 120 ri lth AwnU(' •   Pill.,h~ Jf1:h   PA 1-).::.!.! t!l 1J' J
                                                                    w'''' hi;.:hm.lrl.. .t c•m




Highmark Medicare Services, Inc., Allocable Nonqualified Defined-Benefit Plan Costs (A-07-13-00431)                                   11
